BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 21-296
AMN SERVICES, LLC,

Petitioner,
v.

VERNA CLARKE, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I certify
that the Brief of National Association of Travel
Healthcare Organizations as Amicus Curiae
Supporting Petitioner in 21-296, AMN Services, LLC v.
Verna Clarke, etal. contains 3,916words, excludingthe
parts of the Brief that are exempted by Supreme Court
Rule 33. l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on September 28, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
1 Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affi.ant
on the date designated below.

Notary Public
[seal]

